                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: A05-26                                                                                    Page 1 of 1



             Our office received a complaint from an NSF Program officer' which described concerns with
             awards to a PI^ she funded in her program. The subject has received significant NSF hnding over
             the years to create software tools and other resources that would be made available to the
             community. The promise that tools, resources and research results would be available contributed
             to positive reviews of his proposals. In recent project reports, the subject reported that some of
             the tools were ready for general use - yet the PO received complaints that the software is not in
             fact available. The PO addressed these issues with the subject and the subject did amend his
             project reports to more accurately reflect the status of the software.

         We wrote to the subject to clarify,the 'differences in dtatements in his. original and amended                    ,,       > . 1
                                                                                                                                        .

                                                                                                                  "
         project reports. In his response, the-subject admitte&that he was "overly optimistic" in his 2004
   . . . project report that stgted+is belidf that one.softwarep?ckage was ,ready for export So users. HB:.:lr ..&--.,-            ..
                                                                                                                                < - I -
                                                                                                                                    " I t V
                                                                                                                                        a.                 .:
   . also clarified*that.botQ..setsdf sofh~aiehe:isldevelopiQg are now.ip.ful1 use at nurneroh {::I* h,hfi.isi* a & ! ."::aiad
     . institutions.~~~e:~~~r:d1ari~e&that~~ome5users~1ist~~;~
       .i.                                                           his rep;& wkre erroneous~d6adse'f3dft~ck>i,~~~
                                                                                                             I
                                                                                                                               !b:A&4~
  . after inquiring about$bklsoft%aI:e;thbse potentidt2ise?i.started oilier field w~rk:and-didnbtp~t$~r,kr'i>ti~~'s.'                         ~<!~!F,C;X



         the software into imiediate usezas he had expected.,i!:&                                        L
                                                                                                                    ..., r i ~ iT w Z : ~I J
                                                                                                 . :4t'"k ;jt.+,. .,...
                                                                                                                    ,y."e.   tpl


                                  ;!                                1




             The subject's explanitions appkir reasonable. .Also; the PO has taken steps to make the subjedt * ' -                 '---
                                                                                                                                              -       -
                                                                                                                                                    ---'
             more accountable for his research results and how he reports those results. Given the subject's
             answers and the PO'S effort, we wrote a letter to the subject recommending that he be more
             careful in reporting his results in the future.

             Accordingly, this case is closed.




IVII
NSF 01G Form 2 (1 1/02)
